                                       STRATEGIC CHALLENGES FOR
                                      GSA’S COMPREHENSIVE HUMAN
                                  RESOURCES INTEGRATED SYSTEM (CHRIS)
                                    REPORT NUMBER A040142/O/T/F05025


                                                     TABLE OF CONTENTS

                                                                                                                               PAGE

EXECUTIVE SUMMARY ..............................................................................................i

  Purpose ..........................................................................................................................i

  Background....................................................................................................................i

  Results-in-Brief .............................................................................................................i

  Recommendations .........................................................................................................ii

  Management Response ..................................................................................................iii

INTRODUCTION ............................................................................................................1

  Objectives, Scope, and Methodology ............................................................................1

RESULTS OF AUDIT......................................................................................................3

  Some System Requirements May Not Be Fully Realized with CHRIS ........................3

  Expected Benefits Not Realized for CHRIS Due to Insufficient Customer Base .........5

  Improved System Security Controls Needed ................................................................8

      Key Components of Security Have Not Been Addressed with Certification and
      Accreditation of System Controls.............................................................................8

      Background Checks for Contractors Not Completed ...............................................9

      Improvements Needed in Oracle Database Security.................................................9

  Recommendations ........................................................................................................10

  Management Response .................................................................................................11

  Internal Controls...........................................................................................................11
                                                     APPENDICES

KEY EVENTS IN CHRIS LIFECYCLE ........................................................................A-1

GSA CPO’s RESPONSE TO DRAFT AUDIT REPORT...............................................B-1

REPORT DISTRIBUTION .............................................................................................C-1
                            STRATEGIC CHALLENGES FOR
                           GSA’S COMPREHENSIVE HUMAN
                       RESOURCES INTEGRATED SYSTEM (CHRIS)
                         REPORT NUMBER A040142/O/T/F05025

                                   EXECUTIVE SUMMARY

Purpose
The General Services Administration’s (GSA) Comprehensive Human Resources Integrated
System (CHRIS) is a web-based Human Resources (HR) Information Technology (IT) system
based on the Oracle Federal HR commercial-off-the-shelf product and customized to support a
range of HR and reporting functions intended to meet the needs of GSA and its customers. Our
overall audit objectives were to determine whether: (1) GSA’s CHRIS provides the needed
functionality, security, and other controls for system operations to ensure the data’s integrity and
reliability; (2) the Office of the Chief People Officer (OCPO) has processes in place to improve
system functionality and usability; and (3) CHRIS is financially beneficial to GSA. If not, what
actions are needed to improve CHRIS?

Background

The CHRIS solution was first deployed through a client-server environment in August 2000 to
provide HR systems support to GSA employees and approximately 8,600 external customers
from the National Archives and Records Administration, the Equal Employment Opportunity
Commission, the National Credit Union Administration, and Presidential Boards and
Commissions that were previously supported by the legacy Personnel Information Resources
System. While GSA's OCPO had the immediate requirement to service its own employees and
existing customers with CHRIS, the growth of cross-servicing revenues became part of the
organization's mission. In December 2001, the OCPO implemented new technology to provide
web-based access to the CHRIS system over GSA's network. In September 2004 the OCPO
provided all GSA employees with web-based electronic access to their own personal information
within CHRIS. A timeline of key events relating to CHRIS is provided in Appendix A-1.

Results-in-Brief

CHRIS was deployed by the OCPO to provide important online capabilities and improve GSA and
other Federal organizations’ processes for human resources. Though the original intent for CHRIS
was to provide a comprehensive, integrated HR system, GSA’s strategic efforts with the system
have been impeded by user reluctance to use the system and the availability of duplicative system
functionality provided by other GSA systems. Since the system was introduced in August 2000 a
post-implementation review to fully assess how well the system is meeting user requirements has
not been completed. As a result, some requirements for the HR system such as those established by
the Joint Financial Management Improvement Program may not be adequately supported with
CHRIS. With a changing environment driven by the Human Resources Information System (HRIS)
component of e-Government, GSA has also faced challenges in marketing CHRIS. Due to an
insufficient customer base, CHRIS is not recovering costs or the revenue originally expected.
System lifecycle costs have increased from an initial estimate of $34 million to an estimated $54


                                                 i
million without a projected quantifiable recovery of investment. With ongoing decisions regarding
the selection of HR Line of Business systems, GSA must make critical management decisions
regarding the future of CHRIS, including whether to: (1) retain the system and expand the customer
base to offset costs; (2) offer CHRIS as a service provider under HRIS; or (3) sell CHRIS and
discontinue GSA’s management role with the system. Several areas of system security risk that
could lead to system vulnerabilities or unnecessary risk were assessed through our FY 2004 review
of GSA’s IT Security Program required by the Federal Information Security Management Act. Key
security components for CHRIS have not been fully addressed including the certification and
accreditation of system controls and completion of required security documents. Background
checks for contractors with access to CHRIS are also needed. During our review we also identified
technical control vulnerabilities for the CHRIS Oracle database that, if exploited, may compromise
the confidentiality, integrity, and availability of the system1. Specific steps taken at this critical
juncture could better ensure that GSA’s strategic business objectives and all user needs are met with
the CHRIS system.

Recommendations

We recommend that the GSA Chief People Officer:

    (1) Conduct a post-implementation review in accordance with the Office of Management and
        Budget’s Circular A-130 and GSA’s August 2002 IT Capital Planning And Investment
        Guide, to:
        a. Validate estimated benefits and costs for CHRIS;
        b. Evaluate CHRIS to ensure positive return on investment; and
        c. Ensure that the system meets organizational and user needs.

    (2) Complete an alternatives analysis to fully consider the costs and benefits for the options
        of:
        a. Keeping the system and expanding the customer base to offset costs; or
        b. Offering CHRIS as a service provider under HRIS; or
        c. Selling the system and discontinuing GSA’s management role with CHRIS.

    (3) Ensure that adequate security controls are in place to manage risks with CHRIS by:
        a. Completing the system certification and accreditation process for CHRIS including
           updating required system security documentation.
        b. Prioritizing necessary background checks for contractor staff as required by the GSA
           IT Security Policy and implementing compensating controls until this process is
           completed.
        c. Carefully assessing the Oracle database vulnerabilities and applying technical
           solutions to reduce associated risks.




1
 Specific results for our review of the CHRIS Oracle database were provided separately to the OCPO on July 20,
2005, due to the sensitive nature of the information reported.


                                                       ii
Management Response

We met with the Chief People Officer (CPO) and Office of the Chief People Officer (OCPO)
personnel to discuss the results of our review and to identify any areas in the draft report that
may require revisions. They generally concurred with the findings and two of the three
recommendations as presented in the report. Written comments provided by the CPO indicate
that OCPO will take actions aimed at addressing the identified areas of risk in the report.
Specifically, they identified ongoing or planned management actions toward: (1) conducting a
formal post-implementation review for CHRIS to better assess whether the system effectively
and efficiently meets user needs as well as JFMIP and HR system requirements, and (2)
continuing to enhance CHRIS security controls including another system certification and
accreditation and completing background checks on contractors.

The CPO did not agree with the recommendation to complete an alternatives analysis to fully
consider the costs and benefits for the options of: (1) keeping the system and expanding the
customer base to offset costs; or (2) offering CHRIS as a service provider under HRIS; or (3)
selling the system and discontinuing GSA’s management role with CHRIS. The CPO stated “an
analysis was completed in 2003 and in 2005 the Office of the CPO and the Office of the Chief
Financial Officer (CFO) decided that it would be in GSA’s best interest to offer CHRIS and the
Payroll Accounting Reporting (PAR) system, in combination, as the core of an HR Line of
Business (LoB) Shared Service Center solution. A business case (OMB Exhibit 300) was
submitted to OMB earlier this month as part of the FY 2007 budget formulation process. The
offices of the CPO and CFO will work together to develop a more complete business model to
support this plan.” While the decision to continue CHRIS as a service provider under HRIS is an
option that we recommended be considered, a more complete business model should clarify how
alternatives were considered.

A copy of the management comments is provided in its entirety in Appendix B.




                                               iii
                            STRATEGIC CHALLENGES FOR
                           GSA’S COMPREHENSIVE HUMAN
                       RESOURCES INTEGRATED SYSTEM (CHRIS)
                         REPORT NUMBER A040142/O/T/F05025

                                       INTRODUCTION

The Comprehensive Human Resources Integrated System (CHRIS), a tool used by the General
Services Administration (GSA) and its customer agencies to administer the careers of their
Federal employees, provides a range of Human Resources (HR) services and information. The
CHRIS system was based on the Oracle Federal HR commercial-off-the-shelf database product
and the system has been customized for GSA and other Federal agency customers’ use. CHRIS
was first deployed to HR offices through a client-server environment in August 2000. In
December 2001, the Office of the Chief People Officer implemented new technology to provide
browser-based access over GSA's network by bringing the application to the users’ desktops. A
timeline of key events relating to CHRIS is provided in Appendix A-1.

Objectives, Scope, and Methodology

Our overall audit objectives were to determine whether: (1) GSA’s CHRIS provides the needed
functionality, security, and other controls for system operations to ensure the data’s integrity and
reliability; (2) the Office of the Chief People Officer (OCPO) has processes in place to improve
system functionality and usability; and (3) CHRIS is financially beneficial to GSA. If not, what
actions are needed to improve CHRIS? Our review focused on CHRIS project management,
system and user requirements, security, system controls, and interfaces. We analyzed key
documentation, including the Security Plan, Contingency Plan, Configuration Management Plan,
User Manual, data dictionary, and documentation for interfaces, certification and accreditation,
and security testing and evaluation. We also assessed the original 1999 business plan for CHRIS,
the 2001 Gartner, Inc. pricing study, the 2001 Chief People Officer Technology Initiative, the 2003
International Business Machines study of strategic alternatives for CHRIS, pilot efforts for
additional CHRIS modules; existing and planned system functionality; reconciliation of CHRIS’
costs with Pegasys, GSA’s financial system of record; and GSA operations as well as agreements
with other Federal agencies for their use of CHRIS. We met with key officials in the OCPO,
including the OCPO’s Chief Information Officer (CIO), system administrators, and security
officials. We interviewed system users in the National Capital Region, the Mid-Atlantic Region
(Region 3), the Office of Inspector General Human Resources Offices, the Agency Liaison
Division in the National Capital Region, and the OCPO’s Consolidated Processing Center in
GSA's Heartland Region (Region 6). CHRIS was concurrently reviewed and incorporated in the
Fiscal Year (FY) 2004 review of GSA’s Information Technology (IT) Security Program required
by the Federal Information Security Management Act (FISMA). During the timeframes of this
audit our office issued two separate reports on CHRIS security, with detailed results for our
FISMA technical control tests for CHRIS: FY 2004 Office of Inspector General Information
Security Review of the Comprehensive Human Resources Integrated System, Report Number
A040179/O/T/F05006, dated January 11, 2005, and Security Vulnerabilities with the
Comprehensive Human Resources Integrated System (CHRIS) Oracle Database, Report Number
A040142/O/T/F05021 dated July 20, 2005.



                                                 1
We considered applicable regulations, policies, and guidance for HR systems, including: the
GSA Information Technology Security Policy, CIO P 2100.1B, November 2004; Federal
Information Processing Standards (FIPS) Publication 199, Standards for Security Categorization
of Federal Information and Information Systems, December 2003; Changes in GSA
Organization, ADM 5440.577, December 5, 2003; the GSA Privacy Act Program, CPO 1878.1,
October 27, 2003; Conducting Privacy Impact Assessments in GSA, CPO 1878.2, May 28, 2004;
the GSA CIO’s Capital Planning and IT Investment Guide, February 2000; the GSA CIO’s
Order on GSA Information Technology (IT) Capital Planning and Investment Control, CIO
2135.1, June 11, 2002; the GSA CIO’s IT Capital Planning & Investment Control Guide, August
2002; the Systems Development Life Cycle Policy Handbook, CIO P 2140.2, April 20, 2004; the
GSA Office of the Chief People Officer’s Human Capital Strategic Plan (2002-2007); the Chief
Human Capital Officers Act of 2002; the Federal Information Security Management Act of
2002; the Office of Management and Budget (OMB) Circular A-130 with its Appendices III and
IV, Revised November 30, 2000; OMB Circular A-127, revised July 23, 1993; the Joint
Financial Management Improvement Program’s (JFMIP’s) Human Resources and Payroll
Systems Requirements, JFMIP SR-99-5, April 1999; the General Accounting Office’s (GAO’s2)
Human Resources and Payroll Systems Requirements: Checklist for Reviewing Systems Under
the Federal Financial Management Improvement Act, GAO/AIMD-00-21.2.3, March 2000;
GAO’s Federal Information System Controls Audit Manual (FISCAM), GAO/AIMD-12.19.6,
January 1999; the National Institute of Standards and Technology (NIST) Special Publication
800-18, Guide for Developing Security Plans for Information Technology Systems, December
1998; NIST Special Publication 800-64, Security Considerations in the Information System
Development Life Cycle, Revised June 2004; NIST Special Publication 800-30, Risk
Management Guide for Information Technology Systems, January 2002; NIST Special
Publication 800-47, Security Guide for Interconnecting Information Technology Systems,
August 2002; and the GSA CIO’s IT procedural guides on certification and accreditation,
security test and evaluation, contingency and configuration management plans, risk assessments,
access control, password generation and protection, and security incident handling.

We performed our audit work in GSA’s Central Office, the National Capital Region, the Mid-
Atlantic Region (Region 3), and the Heartland Region (Region 6) between February 2004 and
January 2005 in accordance with generally accepted government auditing standards.




2
    Effective July 7, 2004, the GAO’s legal name was changed to the Government Accountability Office.


                                                         2
                                           RESULTS OF AUDIT

The Comprehensive Human Resources Integrated System (CHRIS) was deployed by the Office of
the Chief People Officer (OCPO) to provide important online capabilities and improve human
resources (HR) processes for the General Services Administration (GSA) and its Federal agency
customers; however, current costs and benefits for the system need to be carefully considered given
the changing environment for Federal HR systems. Though the original intent for CHRIS was to
provide a comprehensive, integrated HR system, GSA’s strategic efforts with the system have been
impeded by user reluctance to use the system and duplicative system functionality provided by other
GSA systems. Some requirements for the HR system such as those established by the Joint
Financial Management Improvement Program (JFMIP) may not be fully realized with CHRIS and
since the system was introduced in August 2000 a post-implementation review to determine how
well the system is meeting user requirements has not been completed. With a changing
environment driven by the Human Resources Information System (HRIS) component of e-
Government, GSA has faced challenges in marketing CHRIS. The system currently has an
insufficient customer base and is not recovering costs or the revenue originally expected. CHRIS
system lifecycle costs have also increased from an initial estimate of $34 million to an estimated
$54 million through Fiscal Year (FY) 2006 without projecting a quantifiable recovery of
investment. With ongoing decisions regarding the selection of HR Line of Business systems, GSA
faces critical decisions including whether to: (1) retain the system and expand the customer base to
offset costs; (2) offer CHRIS as a service provider under HRIS; or (3) sell CHRIS and discontinue
GSA’s management role with the system. Several areas of system security risk that could lead to
system vulnerabilities or unnecessary risk were assessed through our FY 2004 Federal Information
Security Management Act (FISMA) audit and actions are needed to ensure that adequate system
controls are in place and operating as intended. Key security components for CHRIS have not been
fully addressed including the certification and accreditation of system controls and completion of
required security documents. Background checks for contractors with access to CHRIS are also
needed. During our review we identified specific technical control vulnerabilities for the CHRIS
Oracle database that, if exploited, may compromise the confidentiality, integrity, and availability of
the system3. Taking steps to improve managerial, operational, and technical controls at this critical
juncture will better ensure that GSA’s strategic business objectives and all user needs are met with
the CHRIS system.

Some System Requirements May Not Be Fully Realized with CHRIS

Although CHRIS development staff is currently making strides by improving system
functionality and usability and improving communication with its customers, the original intent
of providing a comprehensive HR solution with CHRIS that would support and empower GSA’s
HR professionals, managers, and employees has not been fully realized. CHRIS has encountered
user dissatisfaction and system redundancy challenges, and some benchmark system
requirements established by JFMIP4 may not be met with CHRIS. Further, a post-



3
  Specific results for our review of the CHRIS Oracle database were provided separately to the OCPO on July 20,
2005, due to the sensitive nature of the information reported.
4
  JFMIP’s Human Resources and Payroll Systems Requirements, JFMIP SR-99-5, April 1999.


                                                        3
implementation review has not been performed for CHRIS to ensure that it meets all GSA,
external customer, and other requirements5 for Federal HR systems.

While GSA was still using the legacy Personnel Information Resources System, the OCPO
consolidated its HR-related activities to the Consolidated Processing Center (CPC) in Kansas
City. The CHRIS Division Director stated that over the years, there has been a reluctance of the
user community to fully utilize CHRIS and to provide adequate requirements to the system
development staff, specifically around screen layouts and business process definition. The
Oracle Federal HR solution, a commercial-off-the-shelf product that serves as the foundation for
the CHRIS application, was not stable or well suited for the GSA user community as delivered.
CHRIS was originally designed to meet the needs of regional HR offices in a distributed
environment and was deployed with interim reports and a cumbersome user interface. As a
result, CHRIS was initially met with dissatisfaction from the user community. Additionally, a
dichotomy resulted since the intent of GSA's technical direction with CHRIS was to facilitate
local transaction processing while the procedural direction was to perform HR transactions
centrally with the CPC. However, the technical and procedural direction did not meet the needs
of all the regions. As a result, we found that at least one regional office developed Lotus Notes
applications to provide reports, communicate employee change requests to the CPC, and create
new employee positions, in some cases bypassing HR functionality provided by CHRIS and
supplementing the system with alternative Lotus Notes solutions. While CHRIS has the
technical capability to be a comprehensive integrated human resources system, the system’s
functional capabilities are duplicated in other GSA systems. Further, some modules that provide
specific HR functionality have not been implemented for CHRIS since the functionality exists in
other GSA systems, including the Electronic Time and Attendance Management System,
GSAJOBS, Thrift Savings Plan, and Employee Express.

To assess CHRIS capabilities in the area of system requirements, we relied on a checklist
developed by the Government Accountability Office for reviewing specific benchmarks
established by JFMIP. The checklist describes sets of functionality necessary to support
enterprise-wide lines of business and to reduce redundancy and increase effectiveness and
efficiency. We used this checklist as a guide, but did not apply it to the GSA’s entire human
resources system nor did we determine whether CHRIS substantially complies with all
requirements for human resources systems. Our analysis found that some system requirements
have been met with the system and others have not been fully met. JFMIP requirements stress
the importance of electronic personnel files to reduce the operational burden of maintaining
paper personnel files. However, according to one Regional Human Resources Division,
discrepancies between the CHRIS database and paper employee files have lessened the degree of
confidence in CHRIS’ data integrity. In an attempt to improve the integrity of data maintained
by CHRIS, the OCPO implemented employee read-only web access on September 30, 2004.

The GSA Chief Information Officer’s February 2000 Capital Planning and Information
Technology (IT) Investment Control Guide; June 2002 Order on IT Capital Planning and
Investment Control; August 2002 IT Capital Planning and Investment Control Guide; April 2004

5
 On December 1, 2004 JFMIP responsibilities were transferred to the Chief Financial Officers Council and the
Office of Federal Financial Management (OFFM), and all system guidance issued by JFMIP is transferred to OFFM
and remains in effect until modified.


                                                      4
System Development Life Cycle Policy Handbook, as well as the Office of Management and
Budget’s (OMB) November 2000 Circular A-130 with its Appendix IV all specify that a post-
implementation review of the system should be performed. The objectives of such a review
should include validating estimated benefits and costs, documenting effective management
practices for broader use and lessons learned, and redesigning oversight mechanisms and
performance levels to incorporate acquired knowledge. According to the Director and a
management analyst in the CHRIS Division, a post-implementation review of CHRIS has not yet
been carried out. Such a review would help GSA to better assess whether the system effectively
and efficiently meets all user needs as well as JFMIP and HR system requirements, and would
thus ensure long-term success for this very important system.

Expected Benefits Not Realized for CHRIS Due to Insufficient Customer Base

CHRIS has not yet realized an operating surplus from cross-servicing arrangements, nor reached
a break-even business volume. In 2001, Gartner Inc. reported that competing Federal HR
processing providers were charging their customers between $98.35 to $165 per employee and
recommended that GSA establish an initial price point of $100 per employee. However, GSA's
per employee operations and maintenance (O&M) costs for CHRIS for FY 2001 were $257,
which prevented GSA from profiting at a competitive price near-term. Based on a growth
estimate of 44,142 employees to be serviced through CHRIS by FY 2003, Gartner Inc. projected
a shortfall of less than $1 million in FY 2001 and $543,000 in FY 2002, with a surplus of
$440,000 projected in FY 2003. However, as of FY 2005, CHRIS provided support for only
12,820 GSA and 10,622 cross-serviced employees, and thus the system is well below the
projected customer base. The CHRIS system services the following external customers:
National Archives and Records Administration, National Credit Union Administration, the
Office of Personnel Management, the Railroad Retirement Board, the Export/Import Bank, and
GSA's Agency Liaison Division that handles approximately 30 independent agencies,
Presidential Boards, and Commissions throughout the government. GSA has not realized
expected benefits from CHRIS cross-servicing arrangements, since pricing is insufficient to
recover GSA’s cost of providing HR services. Figure 1 conveys the actual annual cost for
CHRIS per cross-serviced employee over a six-year period. The graph depicts annual employee
costs strictly for development, modernization, and enhancement (DM&E) for CHRIS as well for
the aggregate costs of DM&E, and operation and maintenance support with the system.




                                              5
                                      Figure 1: Annual CHRIS Costs Per Employee
                                                                                Annual Development,
            $275.00                                                             Modernization, and Enhancement
                                                                                (DM&E) Cost per Employee
            $250.00                                                             (24,000)
                                                                                Annual Opearation and
            $225.00                                                             Maintenance (O&M) Cost per
                                                                                Employee (24,000)
            $200.00
                                                                                Total Annual (O&M and DM&E)
            $175.00                                                             Cost per Employee (24,000)

            $150.00
  Dollars




                                                                                Projected Annual DM&E Cost per
            $125.00                                                             Employee (100,000)

            $100.00
                                                                                Projected Annual O&M Cost per
             $75.00                                                             Employee (100,000)

             $50.00
                                                                                Projected Annual (O&M and
             $25.00                                                             DM&E) Cost per Employee
                                                                                (100,000)
               $-
                      FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008 FY 2009
                                               Year


This cost data shows that the customer base for CHRIS has not grown as anticipated, or as
needed, to recover the investment for the system. CHRIS’ external customers’ fees have
remained at $100 per employee, however, since these fees exclude offsetting collections,
including Oracle licensing and support, GSA must subsidize the system expenses. For example,
actual O&M costs for CHRIS for FY 2004 were approximately $151 per employee per year, so
GSA essentially subsidized $51 per every cross-serviced employee for that fiscal year. Current
cost per employee estimates are based on an approximate cross-serviced customer base of
24,000. However, projected estimates are based on 100,000 cross-serviced employees.

Without projecting a quantifiable recovery of investment, CHRIS system lifecycle costs have
also increased from an initial estimate of $34 million to an estimated $54 million in FY 2006.
Figure 2 depicts growing lifecycle cost estimates reported for CHRIS. However, because
available estimates do not include costs for development, modernization, and enhancement
beyond FY 2006, the actual cost of CHRIS could be higher than projected.




                                                             6
                                                               Figure 2: CHRIS Lifecycle Cost Analysis

                           $60,000
                                                                                                                     Annual DM&E Costs
                           $55,000

                           $50,000

                           $45,000
                                                                                                                     Annual O&M Costs
  Dollars (in thousands)




                           $40,000

                           $35,000                                                                                   Annual Total Costs (DM&E and
                                                                                                                     O&M)
                           $30,000

                           $25,000                                                                                   Cumulative DM&E Costs
                           $20,000

                           $15,000
                                                                                                                     Cumulative O&M Costs
                           $10,000

                            $5,000
                                                                                                                     Cumulative Investment (DM&E
                              $-
                                                                                                                     and O&M)
                                     Through   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009
                                     FY 2002

                                                                        Year



According to the CHRIS Division Director, the low customer base has occurred, in part, because
marketing efforts have been restricted until the national standards for HR systems have been
established. The changing environment for Federal HR systems has made it difficult for the OCPO
to effectively market CHRIS to new customers. Current electronic Government (e-Gov) projects
include one related to improving the Federal HR process by establishing easy to use, cost effective,
standardized, integrated, e-HR/Payroll services to support the mission and employees of the Federal
Government. The Office of Personnel Management (OPM) was given lead responsibility for these
projects, and GSA is supporting this effort as a partner to OPM. The GSA payroll office was
chosen by OPM/OMB as one of the four payroll service providers for the Executive Branch. The
overall goal of these HR/Payroll e-Gov initiatives is to reduce the number of human resources and
payroll systems in use throughout the Executive Branch. This requires an integration process with
existing HR processes that has already begun with payroll systems and for HR systems. OPM has
recently announced the new HRIS component of e-Government (HR Line of Business) initiative,
and GSA intends to continue to be an HR service provider for other Federal agencies. However,
due to the alignment of the Federal agencies with the four payroll providers, GSA has acquired only
a few small agencies to provide payroll support, which could further limit the customer base for the
system.

The OCPO has offered CHRIS, with its Oracle HR, to OMB as a possible system solution to be
delivered by service providers with the HR Line of Business. A thorough post-implementation
review is needed to document implementation experiences, recommend system enhancements, and
provide guidance for considering options for the CHRIS system. The OCPO continues to enhance
CHRIS and plans to keep its existing software enhancement commitments, such as Oracle upgrades,
patches, module activation, and minor fixes, scheduled in 2005 and 2006. GSA must decide
whether to: (1) keep the system and expand the customer base to offset costs; (2) offer CHRIS as a
service provider under HRIS; or (3) sell the system and discontinue GSA’s management role with
CHRIS. Regardless of whether CHRIS is selected as an application suitable for the HR Line of


                                                                                         7
Business, critical decisions regarding CHRIS operations should be addressed promptly to minimize
potential financial losses.

Improved System Security Controls Needed

During this audit several weaknesses with CHRIS’ security controls that could lead to system
vulnerabilities or unnecessary risks were identified and have been previously brought to
management’s attention for prompt correction. Our FY 2004 FISMA review6 identified specific
security weaknesses including results from system vulnerability scans. With FISMA we
identified specific risks for CHRIS, and since our review steps have been taken to address
concerns related to budgeting for security costs and tracking known security risks for CHRIS.
However, although CHRIS security controls were conditionally certified by the Office of the
Chief Information Officer (OCIO) in February 2003, key security processes were not complete
for CHRIS. Four conditions stipulated with the CHRIS Certification and Accreditation (C&A)
were: (1) completion of the CHRIS Contingency Plan; (2) completion of the CHRIS
Configuration Management Plan; (3) correction or mitigation of the technical findings from the
Risk Assessment and System Test and Evaluation Report; and (4) implementation of a formal
auditing and monitoring program to detect problems and misuse of OCPO resources. These
conditions have been reported by the OCPO as completed, but a final, unconditional
accreditation letter has not been issued for CHRIS. Further, system security C&A documents
that we reviewed for CHRIS did not address all security controls as required by the GSA IT
Security Program. At the time of our review, we found that background checks had not yet been
completed for contractors hosting the system and providing system administration support to
CHRIS before being granted access to the system. Finally, we also found that the CHRIS
database has a number of vulnerabilities that, if exploited, may compromise the confidentiality,
integrity and availability of the CHRIS system. Because CHRIS contains highly sensitive and
valuable information that may be exposed to undue risk, the OCPO should take additional steps
to more comprehensively address the management, operational, and technical security controls
for the system.

Key Components of Security Have Not Been Addressed with Certification and Accreditation of
System Controls

Several components of CHRIS security have not been addressed through the C&A process as
required in the GSA IT Security Program and require management attention to manage the risks
associated with changing technology, system enhancement, the growth of malicious software,
and other threats. The Accreditation letter for CHRIS stipulates continued operation with the
four conditions that were to be met no later than September 30, 2003: (1) completion of the
CHRIS Contingency Plan; (2) completion of the CHRIS Configuration Management Plan; (3)
correction or mitigation of the technical findings from the Risk Assessment and System Test and
Evaluation Report; and (4) implementation of a formal auditing and monitoring program to
detect problems and misuse of OCPO resources. Although these conditions have been reported
as met, a final, unconditional accreditation letter has not yet been issued. Further, we found that
CHRIS security documentation did not always meet requirements. While a Contingency Plan

6
 FY 2004 Office of Inspector General Information Security Review of the Comprehensive Human Resources
Integrated System, Report Number A040179/O/T/F05006, January 11, 2005.


                                                     8
had been completed for the system during our review, the Contingency Plan did not include
procedures and frequency for testing backup tapes, procedures for performing damage
assessments, and procedures for terminating contingency operations. The system Risk
Assessment did not include a business impact analysis or identify the system’s mission,
processes, and interfaces, and described controls that should be used rather than those that are
currently in place. The CHRIS Security Plan did not address recommendations made in the
system Risk Assessment and did not include procedures for system and application timeout
handling, review of database management system logs, external/internal handling of media, and
use of integrity verification programs to look for evidence of data tampering, errors, and
omissions. CHRIS security officials have updated the system Security Plan to include
procedures for implementation of a formal auditing and monitoring program to detect problems
and misuse of OCPO resources.

[Sensitive information regarding Oracle features has been removed here.]

As a result, CHRIS and its sensitive and valuable information may be exposed to undue risk if
the OCPO does not take steps to more comprehensively address potential system threats and
vulnerabilities and issue a final, unconditional certification and accreditation letter.

Background Checks for Contractors Not Completed

Contractors developing functional enhancements for CHRIS and providing routine maintenance
support for the system have not received required background checks before being granted
access to the system and its sensitive data, as required by the GSA IT Security Policy. The
CHRIS Security Plan identified that aggregate sensitivity for data is medium-high due to the
amount of private information located within the environment because employee access to and
use of CHRIS’ data affects GSA’s mission and operations. Further, efficiency of service and
confidentiality, integrity, and availability concerns remain that could impact HR activities.
GSA’s IT Security Policy requires that contractors who design, operate, test, maintain, and/or
monitor GSA systems shall be required to have at least a background investigation consisting of
a National Agency Check and Inquiries Credit before being granted access to GSA systems or
data. At the time of our review of CHRIS, one development contractor's background check had
been resubmitted and two other contractors' background checks had been requested but not
completed. During the exit conference, the OCPO reported that the problem with background
checks for CHRIS contractor personnel has been addressed except for one newly hired
contractor, who has no access to the production system. The development contract for CHRIS
requires compliance with the Privacy Act "and applicable agency rules and regulations," but does
not specify a deadline for completion of background checks. Without required background
checks for CHRIS contractor personnel, compensating controls, such as criminal record checks,
monitoring of detailed audits logs, and obtaining the contractor’s internal background
investigation and employment history record, should be implemented.

Improvements Needed in Oracle Database Security

We found specific vulnerabilities in the CHRIS database that, if exploited, may compromise the
confidentiality, integrity, and availability of the system. The CHRIS database contains sensitive



                                               9
personnel data, such as social security numbers, which could be used for identity theft if
compromised. An Oracle hardening guide was not in place to assist CHRIS database
administrators with guidance on the configuration of a secure Oracle database, until after our
review. In the absence of this guidance, our assessment was based on the recommendations of
the IT Governance Institute's Oracle Database Security, Audit and Control Features7.

[Examples of vulnerabilities have been removed due to their sensitive nature.]

Careful attention to these conditions is necessary to manage the risks associated with changing
technology, system enhancement, the growth of malicious software, and other threats that
CHRIS faces. Detailed information as to the specific results of our review of the CHRIS Oracle
database8 were provided to the OCPO separately due to the sensitive and technical nature of the
information reported.

Recommendations

We recommend that the GSA Chief People Officer:

    (1) Conduct a post-implementation review in accordance with the Office of Management and
        Budget’s Circular A-130 and GSA’s August 2002 IT Capital Planning And Investment
        Guide, to:
        a. Validate estimated benefits and costs for CHRIS;
        b. Evaluate CHRIS to ensure positive return on investment; and
        c. Ensure that the system meets organizational and user needs.

    (2) Complete an alternatives analysis to fully consider the costs and benefits for the options
        of:
        a. Keeping the system and expanding the customer base to offset costs; or
        b. Offering CHRIS as a service provider under HRIS; or
        c. Selling the system and discontinuing GSA’s management role with CHRIS.

    (3) Ensure that adequate security controls are in place to manage risks with CHRIS by:
        a. Completing the system certification and accreditation process for CHRIS including
           updating required system security documentation.
        b. Prioritizing necessary background checks for contractor staff as required by the GSA
           IT Security Policy and implementing compensating controls until this process is
           completed.
        c. Carefully assessing the Oracle database vulnerabilities and applying technical
           solutions to reduce associated risks.




7
  PriceWaterhouseCoopers, Inc. produced Oracle Database Security, Audit and Control Features, published by the
IT Governance Institute in 2004, with assistance from many industry security experts.
8
  Security Vulnerabilities with the Comprehensive Human Resources Integrated System (CHRIS) Oracle Database,
Report Number A040142/O/T/F05021, July 20, 2005.


                                                      10
Management Response

We met with the Chief People Officer (CPO) and Office of the Chief People Officer (OCPO)
personnel to discuss the results of our review and to identify any areas in the draft report that
may require revisions. They generally concurred with the findings and two of the three
recommendations as presented in the report. Written comments provided by the CPO indicate
that OCPO will take actions aimed at addressing the identified areas of risk in the report.
Specifically, they identified ongoing or planned management actions toward: (1) conducting a
formal post-implementation review for CHRIS to better assess whether the system effectively
and efficiently meets user needs as well as JFMIP and HR system requirements, and (2)
continuing to enhance CHRIS security controls including another system certification and
accreditation and completing background checks on contractors.

The CPO did not agree with the recommendation to complete an alternatives analysis to fully
consider the costs and benefits for the options of: (1) keeping the system and expanding the
customer base to offset costs; or (2) offering CHRIS as a service provider under HRIS; or (3)
selling the system and discontinuing GSA’s management role with CHRIS. The CPO stated “an
analysis was completed in 2003 and in 2005 the Office of the CPO and the Office of the Chief
Financial Officer (CFO) decided that it would be in GSA’s best interest to offer CHRIS and the
Payroll Accounting Reporting (PAR) system, in combination, as the core of an HR Line of
Business (LoB) Shared Service Center solution. A business case (OMB Exhibit 300) was
submitted to OMB earlier this month as part of the FY 2007 budget formulation process. The
offices of the CPO and CFO will work together to develop a more complete business model to
support this plan.” While the decision to continue CHRIS as a service provider under HRIS is an
option that we recommended be considered, a more complete business model should clarify how
alternatives were considered.

A copy of the management comments is provided in its entirety in Appendix B.

Internal Controls

As discussed in the Objectives, Scope, and Methodology section of this report, our audit objectives
were to answer the following questions: (1) does GSA’s CHRIS solution provide the needed
functionality, security, and other controls for system operations to ensure the data’s integrity and
reliability; (2) does the OCPO have processes in place to improve system functionality and
usability; (3) is CHRIS financially beneficial to GSA; and (4) if not, what actions are needed to
improve CHRIS? We focused our review on selected modules within CHRIS, management
controls, operational controls, access controls, as well as the addition of new functionality within
CHRIS. The Results of Audit and Recommendations sections of this report state in detail the need
to strengthen specific managerial and technical controls with CHRIS. Our review did not include a
detailed analysis of all controls or capabilities within CHRIS or overall controls provided within the
OCPO.




                                                 11
                  STRATEGIC CHALLENGES FOR
                 GSA’S COMPREHENSIVE HUMAN
             RESOURCES INTEGRATED SYSTEM (CHRIS)
               REPORT NUMBER A040142/O/T/F05025


                KEY EVENTS IN CHRIS LIFECYCLE



Date                 CHRIS Event
September 1, 1996    Investment in CHRIS Initiated.
Late 1999            Business plan for CHRIS issued.
August 2000          Phase 1 of CHRIS Implemented.
October 12, 2001     Gartner study on pricing for CHRIS issued.

December 17, 2001    Phase 2 of CHRIS Implemented.
February 2002        CHRIS was implemented for its Federal customer
                     agencies.
November 14, 2002    Access Control Directive for CHRIS issued.
December 20, 2002    Risk Assessment for CHRIS issued.
February 20, 2003    System Security Plan for CHRIS issued.
February 20, 2003    System Test and Evaluation Report for CHRIS
                     issued.
February 26, 2003    Security Certification and Accreditation for
                     CHRIS issued.
March 31, 2003       Contingency Plan for CHRIS released.
July 29, 2003        Contingency Plan for CHRIS modified.
September 8, 2003    IBM study of CHRIS strategic options issued.
June 18, 2004        Patch Management Process document for CHRIS
                     issued.
September 30, 2004   CHRIS Personal View now operational.
November 20, 2004    Contingency Plan for CHRIS revised.




                                 A-1
       STRATEGIC CHALLENGES FOR
      GSA’S COMPREHENSIVE HUMAN
  RESOURCES INTEGRATED SYSTEM (CHRIS)
     REPORT NUMBER A040142/O/T/F05025

GSA CPO’s RESPONSE TO DRAFT AUDIT REPORT




                  B-1
B-2
B-3
                             STRATEGIC CHALLENGES FOR
                            GSA’S COMPREHENSIVE HUMAN
                        RESOURCES INTEGRATED SYSTEM (CHRIS)
                           REPORT NUMBER A040142/O/T/F05025

                                   REPORT DISTRIBUTION

                                                                                      Copies

Chief People Officer (C)                                                                3

Director, Office of Information Management, Office of the Chief People Officer (CI)     1

Director, CHRIS Division, Office of the Chief People Officer (CID)                      1

Chief Information Officer (I)                                                           2

Regional Administrator (WA)                                                             1

Regional Administrator (3A)                                                             1

Regional Administrator (6A)                                                             1

Audit Follow-up and Evaluation Branch (BECA)                                            1

Assistant Inspector General for Auditing (JA and JAO)                                   2

Administration and Data Systems Staff (JAS)                                             1

Regional Inspector General for Auditing (JA-W)                                          1

Assistant Inspector General for Investigations (JI)                                     1

Regional Inspector General for Investigations (JI-W)                                    1

Deputy Assistant Inspector General for Finance and Administrative
 Audits (JA-F)                                                                          1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)                        1




                                                 C-1
